i

-7758

S ■ \

Supreme Gourt of The

Supreme Court, U.S.
FILED

United States

FEB 0 3 2021
OFFICE OF THE CLERK

Benjamin E. Vance
Petitioner

VS.

Case No. Awaiting

Warden Frank B Bishop. Jr.
The Attorney General Of The
State Of Maryland
Respondents

Petition For Writ Of Certiorari

Pursuant to Rule 11 of the Supreme Court, I, Benjamin Vance Doc #412-850, Petitioner
proceeding Pro Se, Informa Pauperis, petitions this sol on an honorable court for a Writ
Of Certiorari to review the previous decision of The United States Court Of Appeals for
the Fourth Circuit case no. 20-6970; also the decision of the United States District
Court for the District of Maryland Case No. ELH-18-133, and the Court of Special Appeals
of Maryland Case No. 448. Because the Trial Court for Prince George's County Maryland
Case No. CT11112X and all the above courts have decided an important question of Federal
law that conflicts with relevant decisions of this Court.

Supreme Court Of The
United States

Bejamin E. Vance
Petitioner

VS.

Case No. Pending

Warden Frank B. Bishop. Jr *»
The Attorney General of the
State of Maryland

Question Presented

XL.

Did the lower courts violate Petitioner's Constitutional rights under the 14

Amendment

to Due Process, Equal Protection clause, and U.S. Amendment VI; when prosecutor used
nine of his ten peremptory challenges against all African American Women, violating
'Batson' and its progeny?

(I)

Proceedings In Court

• State of Maryland v. Benjamin E. Vance Case No, CTilllI2X
t

Decided February 2, 2013

• Maryland Court of Special Appeals on February 12, 2014 also Vance v. State,
‘

No. 448, Sept. Term 2013; Mandate issued on April 4, 2014

• The Maryland Court of Appeals denied certiorari on June 24, 2014;
see also Vance v. State, 438.741

• The United States District Court for the District of Maryland,
Dismissed the petition and declined to issue a Certificate of Appealability
on May 22, 2020, Civil Action ELH-18-133

•The United States Court of Appeal for the Forth Circuit, on Oct. 23, 2020
Case No. 20-6970, dismissed for lack of jurisdiction and
remanded to district court for consideration of the unresolved claim.
Id at 699; Per Curiam (Dismissed and Remanded);
* Stay of Mandate Under fed. R. App. P. 41(d)(1) on Nov 5, 2020;
* Order denying Petition For Rehearing and Rehearing enbanc. (No judge
requested a poll under fed. R. App. P. 35 on Petition for rehearing enbanc);
* On Dec 2, 2020 formal Mandate of this court issued;
* On Dec 1, 2020 United States District Court for District of Maryland, No ELH-18-133
Memorandum
* Motion to Reconsider sent to the United States Court of Appeals for Forth Circuit
on Dec 3, 2020, by Petitioner Benjamin E. Vance, case No. 20-6970

(II)

Citations
Vance
Vance
Vance
Vance

v.
v.
v.
v.

State No. 448, Sept. Term 2013
State!; 438. 741 (2014)
U.S. District Court of MD (l:18-cv-00133-ELH) May 22, 2020
U.S. Court of Appeals No. 20-6970 (4tl1 Circuit Dec, 2 2020)
Jurisdiction

Judgement and order sought to be reviewed was entered on Dec 2, 2020 in The United
States Court of Appeal for the Forth Circuit case no. 20-6970; Order staying Mandate
until court ruled on petition for rehearing or rehearing enbanc or motion to stay was
entered on Nov. 5, 2020 case No. 20-6970; Order denying rehearing and rehearing enbanc
Nov. 24, 2020 case no. 20-6970; Mandate ("The judgement of this court!,' entered 10/23/20,
takes effect today") Dec 2, 2020 Case No. 20-6970.
Statutory Provisions
Batson v. Kentucky, 476 U.S 79 (1986)
JEB v. Alabama', 511 U.S. 127 (1994)
U.S Const. Amen 14
U.S Const. Amend.IV

(III)

Notifications required by Rule 29.4(b) have been made
Constitutional Provisions
• Under Batson v. Kentucky, 476 US. 79 (1986), a party may not use peremptory challenges
to exclude potential jurors based on juror's agelj racelj or gender.
• In JEB v. Alabama1,' 511 U.S. 127 (1994), the Supreme Court held that peremptory strikes
based on gender also violates Equal Protection clause;
• Depriving Petitioner of a fair and impartial jury guaranteed by U.S, Const. Amend VI;
Due Process' clause standards of fundamental fairness.

\

)

(IV)

"-N

Statement of Case

In a Criminal Trial in Prince Georges County, Maryland on Feb 2, 2013 a jury convicted
Petitioner Benjamin Vance of Felony Murderlj robbery, arm robbery and unlawful use of a
handgun. Jury found Petitioner not guilty of premeditated murder; only murder charge
which he was lawfully indicted on.
The issue before this Honorable Court stems from the State Court and United States
Appeals court deciding an important federal precedent question in a way that conflicts
with relevant decisions of this court.
Petitioner Vance's defense counsel at the beginning stages of Trial 'Jury Selection'
(Voir Dire) made a Batson' challenge after twelve members of the jury had been
selected. The trial court rejected ['erroneously'3 that Petitioner had not established a
'Prima Facie' Case of intentional discrimination, and allowed Prosecutor Johnathan
Church to engage in two of the unallowable violations which this Honorable Court
forbade. Using nine out of ten peremptory strikes against African American Women; in
violation of the U.S. Const. Amend. 14 Equal Protection, under Due Process, which caused
a fundamental miscarriage of justice and deprived Petitioner of a fair and impartial
jury as guaranteed by U.S. Const. Amend VI

(V)

Argument

Petitioner's defense counsel made a 'Batson' challenge, which the trial court rejected
on the ground that Vance had not established a Prima Fade case of Intentional
discrimination, (see Colloquy App. at 25 & 26)
Under Batson v. Kentucky, 476 U.S 79 (1986) a party may hot use a peremptory challenge
to exclude potential jurors on a juror's race, or gender.
The State's use of nine of its peremptory strikes against African Americans women
demonstrated a 'Prima Facie' case of intentional discrimination. Based on this clear
pattern of strikes the trial court denied the motion after noting simply, that the panel
of twelve consisted of both African Americans, and women. The Judge also noted that the
Venire as a whole was African American; however),! that view is impossible seeing the
entire Venire was well over 70 individuals; which Petitioner could visually see plenty
of Caucasians and would debate that theory. Nonetheless, the important issue overlooked
by each lower level court is 1st, they believe Petitioner's defense counsel abandoned
its objection to jury, by accepting the panel. Is Petitioner to believe once a judge
hands down their ruling "it is not final" or "it is" final until appealed? The latter
being the case in our System of Justice!1, semantics are not necessary. Petitioner's
defense counsel understood the United States precedence deeming unconstitutional racebased and gender-based peremptory challenges.
In Batson v. Kentucky, 476 U.S 79, 83(1986), the Supreme Court held that the Equal
Protection Clause forbids the prosecutor to challenge jurors solely on the account of
their race. In JEB v. Alabama, 511 U.S. 127 (1994), the Supreme Court held that
peremptory strikes based on gender also violate Equal Protection Clause.
It may have been true, as the trial court noted, that other African Americans and
females made the panel of twelve; however such a consideration is immaterial for purpose
of determining whether a prima facie case exists. First of all, the number of African
Americans and females generally on a panel is obviously not necessarily the same as the
number of 'African American Females' on a panel;although there were eight females on the
panel of twelve1, five of them were already seated with the original twelve!' a fact that

(1)

the State did not disclose in 1t's arguments on Direct Appeallj nor did the U.S Appeals
Court; which now allows Petitioner to correct these facts. The Prosecutor at this point
began his Pattern of Discriminatory tactics. He struck 3 African American women from the
original 12 that were seated, and then continued engaging in discriminatory strikes by
striking 6 more African American females from the Venire. The fact that the Prosecutor
chose not to strike any men is a Pattern in itself, Logically speaking, and shows
purposeful discrimination against women. The fact that they were all African American
only adds "Fuel to the fire."
A prima facie case existed. The trial court erred, but then the Court of Special Appeals
for Maryland totally disregarded the 'gender' argument see (App. at 27) ; which^1 in turn,
allowed the U.S. District Court for the District of MD to do the same! ^ (see app. at 18).
This overlooked point prevented the United States Court of Appeals for the Fourth
Circuit from Hearing and Ruling on*the issue, causing them to Dismiss and Remand to
lower court for consideration of the unresolved claim, see (App. at 3).
Whether or not these lower courts intentionally chose to disregard the fact that the
Prosecutor engaged in gender-based Discriminatory Peremptory striking of African
American Women is not for me to decide; however my life was taking from me for a crime I
had no participation whatsoever.
The Prosecution and Appeals Court want to stand on Petitioner's Counsel abandoning his
motion and objection based on Batson grounds, because he accepted the jury panel. Again
I ask this Honorable court, what would you have a defense counsel do once they've
objected to the panel by way of Batson challenge and a Trial Judge rejects the motion?
Is counsel to be in contempt and say, ("Well I'm not going forward because I'm not
satisfied with panel?") No they don't do that!, and if they are allowed to do such a
thing!, I'd ask this Honorable court to state "trial counsel was ineffective for
accepting the judge's decision."
Additionally, the instant case is quite similar to Stanely v. Statelj 313 Md. 50,542 A.2d
1267 (1988), where the State used eight of its ten strikes against African Americans.
The court found a prima facie case (and ultimately, a Batson violation) in 'Stanely'
even though (a) the defendant, the victim, and key state witness were all African
American, and even though (b) African Americans sat on the jury. Id at 67-69. In finding
a prima facie case, the court stressed that the burden of showing one is not "onerous".

(2)

If there was a prima facie case in 'Stanely' surely there was one in this case.
Practically speaking, there will rarely be prima facie cases as strong as the one in the
instant case, where the state used nine of its ten peremptory strikes against African
American Women. Under Batson, JEB v. Alabama and its progeny; defense counsel presented
a strong prima facie case of purposeful discrimination, and the Lower Courts violated
the Equal Protection clause and Petitioner's procedural due process right under the 14
Amendment to U.S. Constitution; which deprived Petitioner of fair and impartial jury as
guaranteed by U.S. Amend VI.

\

\

(3)

WHEREFORE, Petitioner prays that the Court grant him/her all relief to which he/she may
be entitled in this action.
I declare under the penalties of perjury that the information above is true and correct.
SIGNED THIS

1

day of ^ <~LCA rv
7

*

1 »

signature
n

E. • \!i

Poe A413.-850

Printed Name

NhCX.
Address

14100

lU.<,vJ

1
Pro Se

14 h a\5q3

